U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


            BUREAU OF THE CENSUS

                  Atlanta Region Experienced
                       Late Pay Problems for
                      Census 2000 Employees

      Audit Report No. ATL-11640-0-0001 / December 1999




                  Office of Audits, Atlanta Regional Office
December 6, 1999

MEMORANDUM FOR:               Dr. Kenneth Prewitt
                              Director
                              Bureau of the Census


FROM:                         Johnnie E. Frazier
                              Inspector General

SUBJECT:                      Atlanta Region Experienced Late Pay Problems
                              For Census 2000 Employees
                              Final Audit Report No. ATL-11640–0-0001

This is our final report on late pay problems experienced within the Atlanta region during initial
activities related to Census 2000. The report concludes that the Bureau of the Census’s Atlanta
Regional Center encountered a variety of problems in paying its temporary employees, but took
appropriate corrective actions to minimize employees’ pay concerns. Although the information
reported herein pertains directly to pay problems experienced by the Atlanta region, many of the
same circumstances could also exist in the other Census regions. We discussed the results of our
audit with Bureau officials during May and August 1999.

In our draft report, we made recommendations to be implemented by Bureau officials nationwide
to ensure that future Census 2000 pay problems are minimized. The Bureau concurred with
these recommendations in its response to the draft report. We have reviewed the Bureau’s
response and agree with the actions to implement the recommendations. Therefore, we consider
the recommendations to be resolved and no further action is required. We have summarized the
response in the body of this report, and have included the entire response, less the exhibits, as
Attachment I.

If you would like to discuss the contents of this report, please contact me at (202) 482-4661, or
Bill Bedwell, Regional Inspector General for Audits, Atlanta Regional Office, at (404) 730-2780.
We appreciate the cooperation and courtesies extended by Census personnel during our review.

BACKGROUND

The decennial census is the nation’s most comprehensive and expensive statistical data gathering
program. The accuracy of the data collected is critical since the information, among other things,
is used to reapportion seats in the House of Representatives and impacts proportional funding of
many federal programs.

There are twelve Regional Census Centers throughout the nation that administer the data
collection through the operations of local Census offices. Within each center, assistant regional
census managers are responsible for all decennial census activities within their region and report
directly to the Regional Director.
U.S. Department of Commerce                                           Audit Report ATL-11640-0-0001
Office of Inspector General                                                          December 1999

During 1998, the Bureau conducted dress rehearsals at selected locations in South Carolina,
California, and Wisconsin in order to test the various operations planned for Census 2000. Based
on the results of the rehearsals, the Bureau made certain policy and procedural changes in late
1998 to prepare for the decennial census. Among those was the Bureau’s decision to forego
using scanning for payroll processing and, instead, rely on keypunching for data entry. As a
result, each Census region had to revise its plan to process pay for Census 2000 employees.

As the regions began their initial Census 2000 work during late 1998, the Inspector General’s
hotline began receiving complaints from temporary Census employees regarding late pay.
Realizing that the problem was nationwide, the Bureau took several corrective actions in
November 1998. These included establishing a toll-free number so that Census employees could
resolve pay and other concerns within Census channels. Although late pay complaints came
from across the nation, most were from those Census regions that already were heavily involved
with master address listing activities. The chart below documents the complaints received.

                                 Pay Complaints as of January 1999
                        CENSUS           OIG            CENSUS         TOTAL
                        REGION        COMPLAINTS      COMPLAINTS     COMPLAINTS

                Atlanta                   15              67             82

                Boston                     4              2               6

                Charlotte                 14              23             37

                Chicago                    4              6              10

                Dallas                     1              4               5

                Denver                     2              12             14

                Detroit                    3              6               9

                Kansas City                1              22             23

                Los Angeles                2              1               3

                New York                   1              6               7

                Philadelphia               1              1               2

                Seattle                    0              2               2

                Undetermined               3              1               4

                Total                     51             153             204


As shown in the previous chart, through January 1999, the Atlanta region alone received 15 of 51
OIG complaints and 67 of 153 Census complaints for a total of 82 complaints -- representing 40
percent of the 204 complaints nationwide. This region includes Georgia, Florida, and Alabama.




                                                -2-
U.S. Department of Commerce                                            Audit Report ATL-11640-0-0001
Office of Inspector General                                                           December 1999

PURPOSE AND SCOPE

The OIG’s Atlanta Regional Office conducted an audit of the Atlanta Regional Census Center’s
payroll operations for Census 2000. Our audit objective was to determine if the Bureau paid and
reimbursed the Atlanta region’s temporary employees promptly and accurately. We performed
our initial fieldwork at the Atlanta Center during January and February 1999, and did follow-up
work in May and June 1999. Our audit covered the pay periods from October through December
1998, when the Atlanta Center was engaged in its master address listing activities.

For detailed review, we selected payroll records for 14 employees who had complained of late
pay and another 16 employees we chose randomly. For those 30 employees, we examined
information recorded in or generated by the automated Pre-Appointment Management System
and Automated Decennial Administrative Management System (PAMS/ADAMS). Specifically,
we compared information on the employees’ daily work records (Form D-308) with that on the
resulting earning statements (Form D-444). In addition, we reviewed 58 of 187 pay complaints
resolved by the Atlanta Center that were received directly by that office. We also interviewed the
selected pay complainants, as well as Atlanta Center and Census headquarters officials.

We reviewed the management and internal control systems applicable to the Atlanta Center’s
Census 2000 payroll operations. Except as disclosed in this report, we determined that the
systems were basically reliable, and therefore structured our detailed testing of transactions
accordingly. We also relied on computer processed data used in payroll operations. We tested
the data’s accuracy by tracing the data to source documents and by comparing it to the same data
in other documents. Based on our tests, except as disclosed in this report, we concluded that we
could rely on the data in meeting our audit objective.

Since our audit objective was to perform an administrative evaluation of the Atlanta Center’s
Census 2000 payroll operations, we did not assess compliance with federal laws. We tested
certain transactions pertaining to payroll operations. Except as disclosed in this report, the
results of our tests indicate that, with respect to the items tested, the Atlanta Center’s
management complied in all material respects with applicable administrative regulations, most
notably Chapters 5 and 6 of the Bureau’s PAMS/ADAMS Operating Guide. With respect to
items not tested, nothing came to our attention that caused us to believe that the Atlanta Center’s
management had not complied in all material respects with the appropriate regulations.

We conducted the audit in accordance with generally accepted government auditing standards,
and performed it under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.

ATLANTA CENTER EXPERIENCED
VARIOUS LATE PAY PROBLEMS

During late 1998 and early 1999, the Atlanta Center experienced a variety of pay problems that
led employees to complain that they had not received pay, or had received late or incorrect pay.
If not corrected, these problems could undermine the Bureau’s ability to hire and retain qualified
Census 2000 employees in any of its regions. A significant problem was that employees thought

                                                -3-
U.S. Department of Commerce                                            Audit Report ATL-11640-0-0001
Office of Inspector General                                                           December 1999

their pay was late or incorrect because they could not reconcile amounts received against their
personal work records. This occurred because the Atlanta Center did not ensure the timeliness of
earning statements.

Actual late pay resulted mainly for two reasons. First, field personnel did not always promptly
send personnel and pay documents to the Atlanta Center, causing pay to be delayed for the
employees affected. Also, employees sometimes provided incorrect or incomplete payroll
information upon their employment. As a result, their pay either could not be credited to their
bank account or sent directly to them.

In response to these problems, the Atlanta Center took several actions to minimize employees’
pay concerns. These included increasing payroll processing capabilities, improving the flow of
documents, and establishing a problem resolution team to respond to employees’ pay complaints.

Although the information reported herein pertains directly to pay problems experienced by the
Atlanta region, many of the same circumstances could also exist in the other Census regions.
Therefore, we are making recommendations that should be implemented by Bureau officials
nationwide to ensure that future Census 2000 pay problems are minimized.

Earning Statements Were Not Timely

We reviewed 58 of the resolved pay complaints received directly by the Atlanta Center and found
that 41, or about 70 percent, involved misunderstandings regarding pay rather than actual late or
incorrect pay. A change in providing employees’ earning statements led to confusion regarding
pay receipt. In September 1998, the Bureau’s National Processing Center in Jeffersonville,
Indiana, began generating the earning statements and mailing them to all temporary Census
employees nationwide. Prior to this, the regions had performed that function. With the change,
each region was to transmit employee payroll information to the Jeffersonville Center so the
center could provide employees their earning statements a few days after pay documents were
generated.

During the first month after the change, Atlanta region employees did not receive their earning
statements on time because the Atlanta Center was late in providing its input to the Jeffersonville
Center. Atlanta Center officials stated that they simply had not followed the written instructions
the Bureau had issued to the regions governing the new procedures regarding earning statements.

Since employees did not receive their earning statements on time, they had difficulty reconciling
bank deposits or paychecks with any personal work records they maintained. The employees
then contacted Atlanta Center payroll personnel for an explanation. The payroll personnel were
able to resolve the employees’ concerns by reviewing the Atlanta Center’s pay records for the
employee, explaining which work days were reflected in a particular pay deposit or check, and
mailing the employee an earning statement generated from the Atlanta Center’s pay records.




                                                -4-
U.S. Department of Commerce                                           Audit Report ATL-11640-0-0001
Office of Inspector General                                                          December 1999

Employee Pay Was Delayed

We examined pay records for 30 Atlanta region employees from October through December
1998, and found that 27, or 90 percent, reflected instances of late pay. The following chart
shows the extent of the lateness, which ranged from 1 week to more than 12 weeks.

                               Employees Receiving Late Pay
                              WEEKS LATE                EMPLOYEES

                                  0                           3

                                  1                           7

                                  2                           3

                                  3                           5

                                  4                           4

                                  5                           5

                                Over 5                        3

                                 Total                        30


Since most of the sampled employees had experienced late pay during the period, we interviewed
various Atlanta Center officials regarding pay procedures that had been in place at that time. We
determined that there were two basic reasons for the late pay, as discussed below.

   Pay documents were not sent promptly

The Atlanta Center’s original payroll processing plans for Census 2000 required the various local
and field offices to use automated scanning equipment to read information recorded on
employees’ daily work records. However, after the Bureau decided not to use scanning
equipment for Census 2000, Atlanta Center officials elected to have center personnel keypunch
data from daily work records into the PAMS/ADAMS system. As a result, for master address
listing activities, the Atlanta Center had its local and field office crew leaders collect daily
records from employees. The crew leaders then transferred the records to their supervisors, who
submitted the records to the Atlanta Center for data entry.

Atlanta Center officials stated that, for master address listing work, they placed more emphasis
on census data production by local and field personnel than on personnel administration.
Therefore, crew leaders did not always collect daily work records from their assigned employees
each day. They also did not always provide the daily records in sufficient time for their
supervisors to send to the Atlanta Center to meet payroll cutoff dates. In addition, crew leaders
and their supervisors sometimes retained employment documents that Atlanta Center payroll
personnel needed to enter employees into the PAMS/ADAMS system. As a result, the Atlanta
Center had to delay processing some transactions until all needed documents were provided. To
address these problems, Atlanta Center officials said they would place increased emphasis on
training local and field personnel and on payroll administration at that level.

                                               -5-
U.S. Department of Commerce                                                    Audit Report ATL-11640-0-0001
Office of Inspector General                                                                   December 1999

During master address listing activities, Atlanta Center officials took several actions to improve
the timeliness and accuracy of employees’ pay. They increased payroll processing capabilities by
adding a second in-house shift and using temporary agencies. Also, they allowed daily work
records to be sent by fax and overnight courier, and used tracking logs to monitor receipt of the
records. Lastly, they formed a problem resolution team to handle employees’ pay complaints.
Moreover, Atlanta Center officials intended to decentralize payroll processing for Census 2000.
Center officials stated that each of the 55 local offices would have 15 terminals for keying and
transmitting payroll data to the Atlanta Center.

   Employee pay information was not correct

Employees, themselves, caused delays in their initial pay by providing insufficient payroll
information when they were hired, including incorrect or incomplete bank routing symbols or
account numbers, and mailing addresses. This caused automated fund transfers to be rejected or
paychecks to be returned as undeliverable. When this happened, Atlanta Center payroll
personnel then had to contact the affected employees to obtain the correct information. As a
result, the Atlanta Center was delayed in paying new employees. To alleviate this, Atlanta
Center officials said they would place more emphasis on verifying the accuracy of payroll
information received from new employees.

EMPLOYEES WERE PAID TWICE
FOR SAME WORK

Employees’ pay concerns led to one additional problem. When they became concerned about not
receiving their pay on time for certain days worked, some employees reclaimed those days. They
did this by sending faxes or photocopies of original daily work records, or by submitting new
work records for the same date. As a result, Atlanta Center payroll personnel eventually entered
two records into the PAMS/ADAMS system for the same date worked by an employee. This
caused the employee ultimately to be paid twice for the same work. Five of the 30 Atlanta region
employees whose pay records we reviewed received such duplicate pay. We referred the
overpayments, which totaled less than $300, to Atlanta Center officials for appropriate
administrative action.

The duplicate payment problem was similar to one reported in OIG audit reports covering
administrative operations at the 1998 dress rehearsal sites1. In response to a recommendation
on this matter, the Bureau created a “flag edit” query for the PAMS/ADAMS system, which
identifies on an exception report any multiple daily work records submitted by an employee for
the same date. Census payroll officials are to review the exception reports to determine which
multiple submissions are valid and which would cause duplicate pay. The Bureau provided the
flag edit feature to its regional offices in June 1999 for implementation. Also, this feature is


       1
           Columbia Dress Rehearsal Identifies Needed Improvements in Personnel Administration
           Audit No. ATL-11050-8-0001

           Sacramento Dress Rehearsal Identifies Needed Improvements in Personnel Administration
           Audit No. STL-11052-8-0001

                                                     -6-
U.S. Department of Commerce                                           Audit Report ATL-11640-0-0001
Office of Inspector General                                                          December 1999

being reviewed by the OIG component performing an overall evaluation of the PAMS/ADAMS
system.

RECOMMENDATIONS

We recommend that the Director of the Bureau of Census instruct officials in all Census regions
to ensure that:

1. Field personnel timely collect and forward employees’ daily work records to enable payroll
   personnel to process transactions in the appropriate pay period.

2. Employees provide complete and accurate payroll information when they are hired.

3. Payroll personnel are available to resolve employees’ pay complaints.

4. Payroll personnel routinely use the PAMS/ADAMS flag edit exception reports to ensure that
   employees are not paid more than once for the same time worked.

Bureau Comments

The Bureau concurred with the report findings and has taken the following steps to resolve the
recommendations:

Recommendation No. 1

All field and office intermittent employees are instructed to meet daily with their supervisor to
review and certify the daily time sheets to ensure that time sheets will be submitted in time for
the same day or next day processing. In addition, the Bureau has issued daily processing
schedules to Local Census offices with instructions that the data capture process be completed in
a timely manner so that the final payroll can be calculated and forwarded to the U.S. Treasury in
time to meet the scheduled Wednesday payday.

Recommendation No. 2

Earnings statements are created by staff at the end of the payroll cycle each week. To remind the
Atlanta Regional Office of the schedule for generating earnings statements, the staff was
provided written instructions, including pictorial flowcharts and processing schedules. The
Atlanta Regional Office has corrected this problem, with recent reports showing few delays in
processing the statements.

Additionally, employees’ pay may have been delayed due to inappropriate bank account numbers
submitted to the office. The Bureau now requires employees to submit the SF-1199A (Sign-up
for Direct Deposit Form). The form contains the employee’s account number and the bank
routing number, and is certified by his/her bank as accurate. Voided checks or requests written
on loose-leaf paper are no longer accepted. Moreover, the data entry program has been enhanced


                                               -7-
U.S. Department of Commerce                                           Audit Report ATL-11640-0-0001
Office of Inspector General                                                          December 1999

to require double keying of the bank and account numbers. The Bureau refers to this process as
100% verification.

Recommendation No. 3

The Bureau has established an automated tracking program called PASS (Payroll and
Administrative Support System) to help staff manage payroll and administrative complaints
from employees who contact the field offices on the 1-888 toll-free number, through letters of
inquiries or by other means. PASS was expected to be fully operational in all 12 Regional
Census Centers, 130 Early Local Census Offices, and the Puerto Rico Area Office by
November 1, 1999.

Recommendation No. 4

The Bureau has developed a PAMS/ADAMS flag edit. A report will detect employees with
multiple time sheets processed for the same day. The Bureau’s implementing instructions
require that the report includes the employee name, social security number, date worked and the
batch(es) in which the employee’s pay records are located. If there is a duplicate time for the
same day worked, payroll staff have been instructed to disallow the claim and not to process the
D-308. The instructions also require that the D-308 be returned to the employee with an
explanation and a request for a corrected copy if needed.

OIG Comments

We have reviewed the Bureau’s response and agree with the actions taken to implement the
recommendations. Consequently, we consider our draft report’s recommendations to be
resolved. Therefore, no further action is required.

Attachment

cc:    Robert J. Shapiro, Under Secretary for Economic Affairs
       Michael S. McKay, Associate Director for Finance and Administration, Census Bureau
       John H. Thompson, Associate Director for Decennial Census, Census Bureau
       Marvin D. Raines, Associate Director for Field Operations, Census Bureau
       James F. Holmes, Regional Director, Atlanta Regional Office, Census Bureau
       Patricia A. Boteler, Audit Liaison, Census Bureau




                                               -8-
